United States Department of Agriculture
Office of Inspector General




Agreed-Upon Procedures: Employee
Benefits, Withholdings, Contributions, and
Supplemental Headcount Reporting
Submitted to OPM




                                          Audit Report 11401-0003-11
                                          September 2012
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250


September 27, 2012

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001


Subject: Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and
         Supplemental Semiannual Headcount Reporting Submitted to the Office of Personnel
         Management


Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures performed on the subject
information processed by the Department of Agriculture’s Office of the Chief Financial
Officer/National Finance Center as of August 31, 2012.

Our review included information for the following entities, listed in Appendix A of the Office of
Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements, dated September 4, 2007, and amended by OMB Memorandum 09-33, dated
September 23, 2009: Department of Agriculture, Department of Commerce, Department of
Homeland Security, Department of Housing and Urban Development, Department of Justice,
Department of Labor, Department of the Treasury, Agency for International Development, and
Small Business Administration.

This review was performed as required by OMB and in accordance with applicable Government
Auditing Standards and the Statements of Standards for Attestation Engagements established by
the American Institute of Certified Public Accountants.

If you have questions, please contact me at (202) 720-6945 or have a member of your staff
contact Lynette K. Cockrell, Director, Financial Audit Operations, at (816) 823-3860.

Sincerely,



Gil H. Harden
Assistant Inspector General
  for Audit

cc:
Dennis D. Coleman, Chief Financial Officer, Office of Personnel Management
Table of Contents

Executive Summary .................................................................................................1
Independent Auditors’ Report................................................................................3
Abbreviations ...........................................................................................................5
Exhibit A: Procedures Performed and Results ....................................................6
Exhibit B: Combined Federal Campaign (CFC) deductions for employees
with no local CFC campaign .................................................................................20
Exhibit C: Name, Principal Combined Fund Organization (PCFO) and
Address Differences ...............................................................................................22
Exhibit D: Accounting Code Differences .............................................................31
Exhibit E: Incorrect Combined Federal Campaign Pledge Forms ..................58
Executive Summary
Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions,
and Supplemental Semiannual Headcount Reporting Submitted to the
Office of Personnel Management (11401-0003-11)

Results in Brief
This report presents the results of the Agreed-Upon Procedures performed on the employee
benefits, withholdings, contributions, and the Supplemental Semiannual Headcount Reports
submitted to the U.S. Office of Personnel Management (OPM) by the Department of
Agriculture’s Office of the Chief Financial Officer/National Finance Center (OCFO/NFC) as of
August 31, 2012.1

Our objective was to perform the procedures detailed in the Office of Management and Budget
(OMB) Bulletin 07-04, Audit Requirements for Federal Financial Statements, as amended,2 to
assist OPM in assessing the reasonableness of retirement, health, and life insurance
withholdings/contributions, and employee data submitted by OCFO/NFC for the following
entities: Department of Agriculture, Department of Commerce, Department of Homeland
Security, Department of Housing and Urban Development, Department of Justice, Department of
Labor, Department of the Treasury, Agency for International Development, and Small Business
Administration. Our objective was also to assist OPM with identifying errors relating to
processing and distributing Combined Federal Campaign payroll deductions.

We identified differences of more than 2 percent when calculating the military deposit and salary
offset headcounts as part of OPM’s step 5. OCFO/NFC stated that there were differences in the
counts of the memo entries reported to OPM. NFC will further research this issue, and will
ensure any necessary software changes are thoroughly vetted for accuracy and adherence to
OPM regulations. We also identified some differences greater than 2 percent of the reported
count for payers of full premiums for health benefits, and for those with no deductions for, but
enrolled in, various life insurance or retirement plans. Since most of these reported counts are so
small, most differed from our counts by a very small number, often by only one “head.”

Similar to last year, our calculations of retirement withholding and contribution dollars
performed for OPM’s step 6.a., in some cases identified differences of more than 5 percent in the
Civil Service Retirement System and Federal Employees’ Retirement System military deposit
subtotals reported to OPM. OCFO/NFC told us misallocations between the two retirement
systems continued to occur rarely when payments were manually processed, but these errors
were identified and corrected in subsequent pay periods.



1
  We selected our samples from pay period (PP) 17 (August 14, 2011, through August 27, 2011), PP 25
(December 4, 2011, through December 17, 2011), and PP 4 (February 12, 2012 through February 25, 2012). PPs 17
and 4 coincided with the OPM 1523, Supplemental Semiannual Headcount Report, as of September 8, 2011, and
March 8, 2012.
2
  OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, September 4, 2007, was amended by
OMB Memorandum 09-33, Technical Amendments to OMB Bulletin 07-04, Audit Requirements for Federal
Financial Statements, September 23, 2009.

                                                                            REPORT 11401-0003-11           1
Based on our review of documentation for individuals in our samples, we identified eight errors
for benefits entered into the system by staff of the entities. Furthermore, we were unable to
verify the entries for 108 personnel documents tested in steps 2, 3, and 4 because the entities’
personnel officers were unable to locate the documents. However, we performed the
calculations for salary, retirement, life, and health insurance, where applicable, to ensure that
information from the OCFO/NFC system was accurate. We noted no exceptions.

For step 7, we analyzed 93,732 records with Combined Federal Campaign (CFC) deductions
reported by OCFO/NFC for PP 4, 2012, and identified 41 employees who were in duty stations
with no CFC campaign. We also determined that the OCFO/NFC CFC code was not consistent
with the OPM CFC code by duty station for 2,380 (or about 2.5 percent) of the 93,732 records
we reviewed in step 9. For step 10, we identified 10 instances in which the incorrect CFC pledge
form was used by the employees.

Additionally, for step 8, we identified differences when we compared the name of the CFC, the
Principal Combined Fund Organization (PCFO), or address of the PCFO on the list of CFC areas
from the OCFO/NFC system to the list of local CFC areas provided by OPM.

In explaining the CFC differences, OCFO/NFC noted the low error rate overall when considered
on a percentage basis and attributed many of the differences to human error by personnel at
various agencies. OCFO/NFC stated they were responsible for processing very few of the
transactions identified as differences.

Recommendation Summary
We do not make any recommendations in this report.




2    REPORT 11401-0003-11
Independent Auditors’ Report

To:     Honorable Patrick E. McFarland
        Inspector General
        U.S. Office of Personnel Management



We have performed the procedures described in exhibit A, which were agreed to by the Inspector
General and Chief Financial Officer of the U.S. Office of Personnel Management (OPM), solely
to assist OPM with respect to the employee withholdings and employer contributions reported by
the Department of Agriculture’s Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC) on the Standard Form 2812, Report of Withholdings and Contributions for Health
Benefits, Life Insurance, and Retirement, and OPM 1523, Supplemental Semiannual Headcount
Report.3 The reports submitted by OCFO/NFC included information for the following entities
listed in Appendix A of the Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended:4 Department of Agriculture,
Department of Commerce, Department of Homeland Security, Department of Housing and
Urban Development, Department of Justice, Department of Labor, Department of the Treasury,
Agency for International Development, and Small Business Administration.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with
applicable Government Auditing Standards and the Statement of Standards for Attestation
Engagements established by the American Institute of Certified Public Accountants. The
sufficiency of the procedures is solely the responsibility of the Inspector General and the Chief
Financial Officer of OPM. Consequently, we make no representations regarding the sufficiency
of the procedures described either for the purpose for which this report has been requested or for
any other purpose. The results of the engagement are detailed in exhibits A through E.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
retirements; the Combined Federal Campaign; and the headcount reports prepared by
OCFO/NFC. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.




3
  We selected our samples from pay period (PP) 17 (August 14, 2011, through August 27, 2011), PP 25
(December 4, 2011, through December 17, 2011), and PP 4 (February 12, 2012 through February 25, 2012). PPs 17
and 4 coincided with OPM 1523, Supplemental Semiannual Headcount Report, as of September 8, 2011, and
March 8, 2012.
4
  OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements, September 4, 2007, was amended by
OMB Memorandum 09-33, Technical Amendments to OMB Bulletin 07-04, Audit Requirements for Federal
Financial Statements, September 23, 2009.

                                                                            REPORT 11401-0003-11           3
This report is intended solely for use of the Inspector General and Chief Financial Officer of
OPM and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.




Gil H. Harden
Assistant Inspector General
 for Audit

September 17, 2012




4    REPORT 11401-0003-11
Abbreviations

CFC ............................. Combined Federal Campaign
CSRS ........................... Civil Service Retirement System
FEGLI ......................... Federal Employees’ Group Life Insurance
FEHB .......................... Federal Employees Health Benefits
FERS ........................... Federal Employees’ Retirement System
NFC ............................. National Finance Center
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPF ............................. Official Personnel File
OPM ............................ U.S. Office of Personnel Management
PCFO........................... Principal Combined Fund Organization
PP ................................ Pay Period
RITS ............................ Retirement and Insurance Transfer System
SF ................................ Standard Form
TMGT ......................... Table Management
USDA.......................... The Department of Agriculture




                                                                             REPORT 11401-0003-11   5
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 1 of 14

    1. Compare the Retirement and Insurance Transfer System (RITS) submission data to the
       payroll information by performing the following procedures (Note: For cross-servicing
       agencies, if the internal controls are the same for all agencies serviced, it is only
       necessary to perform this procedure for one agency):

       a. Recalculate the mathematical accuracy of the payroll information.

       b. Recalculate the mathematical accuracy of the RITS submission for the payroll
          information in step 1.a.

       c. Compare the employee withholding information at the aggregate level for retirement,
          health benefits, and life insurance (as adjusted for reconciling items) shown on the
          payroll information obtained in step 1.a. to the related amounts shown on the RITS
          submission for the corresponding period.

       Report any differences for each of the retirement, health benefits, and life insurance
       (categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
       of the three categories. Obtain from management a management official name, an
       explanation, telephone number, and an email address for the differences above the 1
       percent threshold.

       Results

       There were no differences over 1 percent.

    2. See sub-steps below.

       a. Randomly select a total of 25 individuals (from each Department) who were in the
          payroll system for all three of the RITS submissions selected above that meet all of
          the following criteria:

           ·     Covered by the Civil Service Retirement System (CSRS) or the Federal
                 Employees Retirement System (FERS);

           ·     enrolled in the Federal Employees Health Benefits (FEHB) Program;

           ·     covered by Basic Life Insurance; and

           ·     covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
                 optional coverage (Option A, B, or C).

       b. Obtain the following documents, either in electronic format or hard copy format, from
          the official personnel file (OPF) for each individual selected in step 2.a. Hard copies
          can be originals or certified copies.


6    REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                              Exhibit A – Page 2 of 14

          ·      All Notifications of Personnel Actions Standard Form-50 (SF) covering the pay
                 periods (PP) in the RITS submissions chosen;

          ·      the Health Benefits Election Form (SF-2809) covering the pay periods in the
                 RITS submissions chosen or, if applicable, obtain a report (via the agency
                 personnel office) from the agency’s automated system that allows participants to
                 change benefits (e.g., Employee Express), for any health benefits transactions in
                 that system for the individuals selected in step 2.a. (Note: A new SF-2809 is
                 needed only if an employee is changing health benefit plans. Therefore, the form
                 could be many years old). Also for health benefits, compare the date of
                 transaction with the date on the certified copy of the SF-2809 or the agency’s
                 automated system report obtained above to identify whether the health benefit
                 information to be used in step 2.f. covers the pay periods in the RITS submissions
                 chosen; and

          ·      the Life Insurance Election Form (SF-2817) covering the pay periods in the RITS
                 submission chosen (note: a new SF-2817 is needed only if an employee is
                 changing life insurance coverage; therefore, the form could be many years old).

       Results

       Personnel officers were not able to locate the following 95 documents; however, we
       performed the calculations for salary, retirement, life, and health insurance in these cases
       to ensure that information from the Office of the Chief Financial Officer/National
       Finance Center (OCFO/NFC) system was accurate.


ENTITY                                                        SF-50         FEHB           FEGLI

Department of Agriculture                                       0              0               0

Agency for International Development                            0              17             12

Department of Commerce                                          2              1               1

Department of Justice                                           1              1               5

Department of Labor                                             0              5               1

Department of Homeland Security                                 8              9              10

Department of Housing and Urban Development                     0              3               8




                                                                      REPORT 11401-0003-11         7
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 3 of 14
(Note: Table Continued from Previous Page)

ENTITY                                                      SF-50         FEHB           FEGLI

Small Business Administration                                 2              6               2

Department of the Treasury                                    0              1               0

TOTAL                                                         13            43              39

       c. For each individual selected in step 2.a., compare the base salary used for payroll
          purposes and upon which withholdings and contributions generally are based to the
          base salary reflected on the employee’s SF-50. Report any differences resulting from
          this step and obtain management’s explanation for the differences.

       Results

       We noted one Agency for International Development employee’s SF-50, reflecting the
       employee’s within grade pay increase, was not processed timely. Agency personnel
       provided documentation to show the annual base salary was later corrected. No other
       exceptions were noted.

       d. For retirement for each individual selected in step 2.a., compare the retirement plan
          code from the employee’s SF-50 to the plan code used in the payroll system. Report
          any differences resulting from this step and obtain management’s explanation for the
          differences.

       Results

       No exceptions were noted.

       e. For each individual selected in step 2.a., calculate the retirement amount to be
          withheld and contributed for the plan code from the employee’s SF-50, by
          multiplying the base salary from the employee’s SF-50 by the official withholding
          and contribution rates required by law. Compare the calculated amounts to the actual
          amounts withheld and contributed for the retirement plan. Report any differences
          resulting from this step and obtain management’s explanation for the differences.

       Results

       No exceptions were noted.

       f. For health benefits for each individual selected in step 2.a., compare the employee
          withholdings and agency contributions to the official subscription rates issued by the
          U.S. Office of Personnel Management (OPM) for the plan and option elected by the
          employee, as documented by a Health Benefits Election Form (SF-2809) in the

8    REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 4 of 14

        employee’s OPF or automated system that allows the participant to change benefits
        (e.g., Employee Express). Report any differences resulting from this step and obtain
        management’s explanation for the differences.

     Results

     We were unable to confirm health benefits withholdings and agency contributions for two
     Agency for International Development employees for PP 17 of 2011. The employees
     incurred 100 percent of health benefits costs. The agency did not respond to requests to
     provide an explanation of the withholdings and contributions. No other exceptions were
     noted.

     g. For life insurance for each individual selected in step 2.a., confirm that Basic Life
        Insurance was elected by the employee by inspecting the Life Insurance Election
        Form (SF-2817) documented in the employee’s OPF. Report any differences
        resulting from this step and obtain management’s explanation for the differences.

     Results

     We found the FEGLI code in the payroll system did not match the basic coverage elected
     on the SF-2817 for one Small Business Administration employee. Agency personnel did
     not respond to our requests to confirm the error.

     h. For each individual selected in step 2.a., calculate the withholding and contribution
        amounts for Basic Life Insurance using the following:

        ·      For employee withholdings: round the employee’s annual base salary up to the
               nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
               by the rate required by law. The life insurance rates are on OPM’s website at
               http://www.opm.gov/insure/life/rates/index.asp.

        ·      For agency contributions: divide the employee withholdings calculated above by
               two.

               Compare the calculated employee withholdings and agency contributions to the
               actual amounts withheld and contributed for Basic Life Insurance. Report any
               differences resulting from this step and obtain management’s explanation for the
               differences.

     Results

     No exceptions were noted.
     i. Also, for life insurance for each individual selected in step 2.a., compare optional
        coverage elected as documented on the SF-2817 in the employee’s OPF to the
        optional coverage documented in the payroll system. Report any differences resulting
                                                                   REPORT 11401-0003-11          9
Exhibit A: Procedures Performed and Results
                                                                                            Exhibit A – Page 5 of 14

             from this step and obtain management’s explanation for the differences.

         Results

         We found two FEGLI codes in the payroll system that did not match the optional
         coverage elected on the SF-2817 - one each at the Department of the Labor and
         Department of the Treasury. Department personnel confirmed the processing errors but
         told us they could not correct the errors due to incontestability.5

         j. For each individual selected in step 2.a., calculate the withholding amounts for
            optional life insurance using the following:

             ·     For Option A: Locate the employee’s age group using the age groups provided for
                   Option A in the FEGLI Program Booklet. The withholding amount to be used is
                   the rate listed in the FEGLI Program Booklet for that age group. Compare the
                   calculated amount to the amount withheld for Option A Life Insurance. Report
                   any differences resulting from this step and obtain management’s explanation for
                   the differences.

         Results

         No exceptions were noted, other than the Department of the Treasury error noted in 2i
         above.

             ·     For Option B: Inspect the SF-2817 to obtain the number of multiples chosen for
                   Option B. Locate the employee’s age group using the age groups provided for
                   Option B in the FEGLI Program Booklet. Round the employee’s annual rate of
                   basic pay up to the next 1,000, divide it by 1,000, and then multiply it by the rate
                   for the respective age group. Multiply this amount by the number of multiples
                   chosen for Option B Life Insurance. Compare the calculated amount to the
                   amount withheld for Option B Life Insurance. Report any differences resulting
                   from this step and obtain management’s explanation for the differences.

         Results

         No exceptions noted, other than the Department of Labor error noted in 2i above.




5
  Incontestability provides for allowing erroneous coverage (coverage that was obtained in error) to remain in effect
under certain conditions. Those conditions are: (1) erroneous coverage was in effect for at least 2 years before the
error is discovered and (2) the employee must have paid the applicable premiums for the erroneous coverage while it
was in effect. Both conditions must be met for incontestability to apply. Enrollments that are allowed to stand due
to incontestability become valid enrollments.

10      REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 6 of 14
         ·     For Option C: Inspect the SF-2817 to obtain the number of multiples chosen for
               Option C. Locate the employee’s age group using the age groups provided for
               Option C in the FEGLI Program Booklet. Multiply the rate for the age group by
               the number of multiples chosen for Option C Life Insurance. Compare the
               calculated amount to the amount withheld for Option C Life Insurance. Report
               any differences resulting from this step and obtain management’s explanation for
               the differences.
     Results

     No exceptions were noted.

  3. Randomly select a total of 10 employees (from each Department) who have no health
     benefits withholdings from the payroll information corresponding to the three RITS
     submissions selected above and perform the following for each employee selected.

     a. Obtain SF-2809s covering the PPs in the RITS submissions chosen, either in
        electronic or hard copy format, from the selected employee’s OPF or, if applicable,
        obtain a report (via the agency personnel office) from the agency’s automated system
        that allows participants to change benefits (e.g., Employee Express) for any health
        benefit transactions in that system for the individuals selected. Hard copies can be
        originals or certified copies. Inspect the documentation (that is, SF-2809 or the
        agency’s system-generated report) to identify whether health benefits coverage was
        not elected. This can be identified in the following ways:

         ·     Absence of an SF-2809 in the OPF and no election of coverage made through the
               agency’s automated system that allows participants to change benefits (e.g.,
               Employee Express); or

         ·     an SF-2809 in the OPF with Section E checked (indicating cancellation of
               coverage) and no later election of coverage through the agency’s automated
               system that allows participants to change benefits (e.g., Employee Express); or

         ·     cancellation of coverage through the agency’s automated system that allows
               participants to change benefits (e.g., Employee Express) and no later election of
               coverage with an SF-2809.

     b. Compare the result in step 3.a. to the RITS submissions. Report any differences
        resulting from this step and obtain management’s explanation for the differences.

     Results

     Personnel officers could not locate five of the SF-2809 in the employees’ OPFs (one each
     at the Departments of the Treasury, and Housing and Urban Development, one at the
     Small Business Administration and two at the Department of Homeland Security). For
     one Department of the Treasury employee, we noted a status of eligible pending in the
                                                                   REPORT 11401-0003-11         11
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 7 of 14

        payroll system from August 14, 2011, through February 25, 2012. According to the
        FEHB Handbook, the employee must complete an election form within 60 days of
        becoming eligible. Department of the Treasury personnel did not respond to our requests
        to provide an election form or confirm the error. No other exceptions were noted.

     4. Randomly select a total of 10 employees (from each Department) who have no life
        insurance withholdings from the payroll information corresponding to the three RITS
        submissions selected above and perform the following for each employee selected.

        a. Obtain the SF-2817s covering the PPs in the RITS submission chosen, either in
           electronic or hard copy format, from the selected employee’s OPF. Hard copies can
           be originals or certified copies. Inspect the SF-2817 to identify that the employee
           waived or canceled Basic Life Insurance coverage.

        b. Compare the result in step 4.a. to the RITS submissions. Report any differences
           resulting from this step and obtain management’s explanation for the differences.

        Results

        The personnel officers could not locate eight of the forms (three at the Agency for
        International Development, two each at the Departments of Homeland Security and
        Housing and Urban Development and one at Small Business Administration). We also
        identified one instance at the Department of Housing and Urban Development where the
        basic life insurance election on the SF 2817 did not match the payroll system, which
        indicated “waived” coverage. As a result premiums were not being withheld from the
        employee’s salary. Agency personnel did not respond to our requests to confirm the
        error. No other exceptions were noted.

     5. Calculate the headcount reflected on the September 2011 and March 2012 Supplemental
        Semiannual Headcount Report selected, as follows:

        a. Obtain existing payroll information (from step 1.a.) supporting each Supplemental
           Semiannual Headcount Report. If existing payroll data are not available, obtain a
           payroll system query that summarizes detailed payroll data supporting each
           Supplemental Semiannual Headcount Report, as follows:

            ·     Benefit category (see Supplemental Semiannual Headcount Report),

            ·     Dollar amount of withholdings and contributions,

            ·     Number enrolled (deductions made/no deductions),

            ·     Central personnel data file code, and

            ·     Aggregate base salary.

12      REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 8 of 14
     b. Recalculate the headcount reflected on each Supplemental Semiannual Headcount
        Report. If an electronic file is not available, a suggested method of recalculating the
        headcount is as follows: (1) estimate the number of employees per payroll register
        page by counting the employees listed on several pages, (2) count the number of
        pages in the payroll register, and (3) multiply the number of employees per page by
        the number of pages, or count (using a computer audit routine) the number of
        employees on the payroll data file for the period.
     c. Compare the payroll information obtained in step 5.a. and the calculated headcount
        from step 5.b. to the information shown on each respective Supplemental Semiannual
        Headcount Report.

     d. Report any differences (i.e., gross rather than net) greater than 2 percent between the
        headcount reporting on each respective agency Supplemental Semiannual Headcount
        Report and payroll information from step 5.a. and the calculated headcount from step
        5.b. Obtain from management a management official name, telephone number, an
        email address, and an explanation for the differences.

     Results

     Similar to last year, our calculations of military deposit and salary offset headcounts
     sometimes differed by more than 2 percent from the corresponding CSRS and FERS
     subtotals reported on the Supplemental Semiannual Headcount Report. Last year
     OCFO/NFC personnel told us that, while these were only memo entries reported to OPM
     and were not included in the total retirement headcount, OCFO/NFC would make the
     necessary modifications to the program to calculate the correct military deposit and salary
     offset headcounts. This year NFC indicated that while researching this issue, it was
     determined that additional research is required to ensure that any software changes made
     are thoroughly vetted for accuracy and adherence to OPM regulations. NFC stated that it
     will establish a project and work closely with the Office of Inspector General (OIG) to
     establish specific criteria, compare the NFC and OIG processes, determine the
     differences and if necessary go to OPM for guidance and direction.

     We also identified some differences greater than 2 percent of the reported count for
     payers of full premiums for health benefits, and for those with no deductions for, but
     enrolled in various life insurance and/or retirement plans. Since most of these reported
     counts are so small, most differed from our counts by a very small number, often by only
     one “head.”
     NFC indicated that occasional differences in headcounts for payers of full health
     premiums could be caused by either counting the same employee more than once if there
     are one or more record(s), or not counting employees under certain types of military
     furloughs that are subjected to pay full FEHB premiums after they have been on military
     furlough for more than 365 days. NFC indicated they will research these instances
     further to confirm if they are indeed being counted incorrectly and if so, will make the
     necessary program modifications.
                                                                 REPORT 11401-0003-11         13
Exhibit A: Procedures Performed and Results
                                                                                  Exhibit A – Page 9 of 14

        Our review disclosed that the various differences in headcounts for those enrolled in life
        insurance with no deduction are due to either:
            ·         counting the same employee more than once if there are one or more record(s), or

            ·         using the existence/absence of a deduction for basic FEGLI instead of an optional
                      FEGLI to distinguish those with deductions from those without deductions for
                      optional FEGLI.
        NFC concurred and told us that additional research will be performed to ensure that any
        software changes made are thoroughly vetted for accuracy and adherence to OPM
        regulations. NFC also stated that it will establish a project and work closely with OIG to
        establish specific criteria, compare the NFC and OIG processes, determine the differences
        and if necessary, go to OPM for guidance and direction.

        The various differences in headcounts for those enrolled in a CSRS or FERS plan with no
        deductions are primarily due to including those who recently separated. NFC stated that
        it appears that they will need to make software modifications to address these
        situations. As noted above, NFC will perform additional research to ensure accuracy and
        compliance with OPM regulations of any software changes and will establish a project to
        work closely with OIG and OPM, as necessary, to resolve the differences.
     6. Calculate employer and employee contributions for retirement, health benefits, and life
        insurance as follows:

        a. Calculate retirement withholdings and contributions for the three PPs selected in
           step 1.a. as follows:

                 i.      Multiply the CSRS and FERS payroll base by the withholding and employer
                         contribution rates required by law.

                ii.      Compare the calculated totals from step 6.a.i. to the related amounts shown on
                         the RITS submissions. Report any differences (i.e., gross rather than net)
                         between the calculated amounts and the amounts reported on the RITS
                         submissions that are greater than 5 percent of the amounts on the RITS
                         submission, and obtain management’s explanation for the differences.

        Results

        There were no differences greater than 5 percent, except in some cases, our calculation of
        a military deposit dollar subtotal differed by more than 5 percent from the corresponding
        CSRS or FERS subtotal reported on the SF-2812. Similar to last year, OCFO/NFC
        personnel told us that misallocations between FERS and CSRS continued to occur rarely
        when payments were manually processed, but the errors were identified and corrected in


14      REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                                     Exhibit A – Page 10 of 14

        subsequent PPs. Additionally, NFC stated that the number of the Federal Erroneous
        Retirement Coverage Corrections Act6 cases being processed has increased substantially
        which may be a contributing factor.
        b. Calculate the employee withholdings and employer contributions for health benefits
           for the three PPs selected in step 1.a., as follows:

               i.    Multiply the number of employees enrolled in each health benefits plan and
                     plan option by the employee withholdings and employer contributions for the
                     plan and option.

              ii.    Sum the totals in step 6.b.i. and compare the result with the health benefit
                     withholding and contribution amounts shown on the RITS submissions.
                     Report any differences (i.e., gross rather than net) between the calculated
                     amounts and the amounts reported on the RITS submissions that are greater
                     than 5 percent of the amounts on the RITS submission, and obtain
                     management’s explanation for the differences.
        Results

        There were no differences greater than 5 percent.

        c. Calculate the basic life insurance employee withholdings and employer contributions
           for the three PPs selected in step 1.a., as follows:

               i.    Obtain a payroll system query from agency payroll provider personnel to
                     obtain the total number of employees with Basic Life Insurance coverage and
                     the aggregate annual basic pay for all employees with basic life insurance.

              ii.    For employee withholdings: Add the product of 2,500 times the number of
                     employees with Basic Life Insurance coverage from step 6.c.i. above to the
                     aggregate annual basic pay for all employees with Basic Life Insurance from
                     step 6.c.i above to calculate the estimated total Basic Life Insurance coverage.
                     Divide this calculated total by 1,000 and multiply it by the withholding rate
                     required by law. The Life Insurance withholding rates are in the FEGLI
                     Program Booklet on OPM’s website.

             iii.    Compare the result in step 6.c.ii to the withholdings for Basic Life Insurance
                     coverage reported on the RITS submission. Report any difference (i.e., gross
                     rather than net) between the estimate and the amount of withholdings reported
                     on the RITS submission greater than 5 percent of the amounts on the RITS
                     submission, and obtain management’s explanation for the difference.

6
 The Federal Erroneous Retirement Coverage Corrections Act, Public Law 106-265, was enacted into law
September 19, 2000.

                                                                          REPORT 11401-0003-11           15
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 11 of 14
     Results
        There were no differences greater than 5 percent.

         iv.     For agency contributions: Divide the results of step 6.c.ii. by two – this
                 approximates agency contributions, which are one-half of employee
                 withholdings. Compare this result to the amount reported on the RITS
                 submission. Report any differences (i.e., gross rather than net) between the
                 estimated amount and the actual amount reported on the RITS submission that
                 are greater than 5 percent of the amounts on the RITS submission, and obtain
                 management’s explanation for the differences.

     Results

     There were no differences greater than 5 percent.

     d. Calculate the Option A, Option B, and Option C Life Insurance coverage
        withholdings for the three PPs selected by using the detail payroll reports used to
        reconcile the RITS reports in step 1. In addition to the information used for step 1,
        the reports should include the employee’s date of birth, annual rate of basic pay, and
        the number of multiples selected for Option B and C. Note: While similar to
        step 2.j., the calculation at this step is for the entire amount reported on the RITS
        submissions for the three PPs selected, as opposed to the sample of 25 employees in
        step 2.j.

            i.   Multiply the number of employees in each age group by the appropriate rate
                 for Option A in accordance with the rates for the age groups provided in the
                 FEGLI Program Booklet.

           ii.   Compare the result in step 6.d.i. to the amounts for Option A reported on the
                 RITS submissions. Report any differences (i.e., gross rather than net) greater
                 than 2 percent of the amounts on the RITS submission, and obtain
                 management’s explanation for the differences.

     Results

     There were no differences greater than 2 percent.

          iii.   Segregate the reports for Option B and Option C insurance into the age
                 groups shown in the FEGLI Program Booklet. For Option B, round the
                 employee’s annual rate of basic pay up to the next 1,000, then divide it by
                 1,000, and then multiply this amount by the rate for the age group by then
                 multiplying this by the number of multiples:
                 (Annual rate of basic pay (rounded up)/1,000*rate*multiples).


16   REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 12 of 14
         For Option C, multiply the rate for the age group by the number of multiples chosen
         for each employee.
           iv.   Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
                 respectively, reported on the RITS submissions. Report any differences (i.e.,
                 gross rather than net) greater than 2 percent of the amounts on the RITS
                 submissions for Option B or Option C, and obtain management’s explanation
                 for the differences.

     Results
     There were no differences greater than 2 percent.
  7. Compare the list of field offices/duty stations to the list of local Combined Federal
     Campaign (CFC) campaigns obtained from OPM’s Office of CFC Operations.
     Determine in which campaign each field office/duty station is located. (Note: It is
     possible for a field office/duty station to be in a location with no local CFC campaign.)

     Report as a finding the following: All instances in which a federal agency has a CFC
     deduction for an employee whose official duty station is in an area with no local CFC
     campaign. A chart listing the Federal agency, the duty station code and the campaign
     receiving the funds should be included. Obtain management’s explanation for the
     differences and a corrective action plan.

     Results
     We analyzed 93,732 records with CFC deductions reported by OCFO/NFC for PP 4,
     2012, and identified 41 employees (or 0.04 percent) who were in duty stations that had no
     corresponding CFC campaign. See exhibit B for a chart listing the Federal agency, the
     duty station code and the campaign receiving the funds as well as OCFO/NFC
     management’s response.

  8. Compare the list of accounting codes to the identified campaigns for each field
     office/duty station.

     a. Determine the accounting code for each field office/duty station.

     b. Determine the name of the campaign, the Principal Combined Fund Organization
        (PCFO), and address of the PCFO in the agency payroll provider’s system agree with
        the information for that field office/duty station on the list of local CFC campaigns
        obtained from OPM’s Office of CFC Operations.

     Report as a finding the following: All instances in which the name of the campaign,
     PCFO, or address of the PCFO on the list of accounting codes from the Federal Payroll
     Office does not agree to the information on the list of all local CFC campaigns obtained
     from OPM’s OCFC. A chart detailing the differences should be included. Obtain
     management’s explanation for the differences and a corrective action plan.
                                                                 REPORT 11401-0003-11          17
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 13 of 14

        Results

        We identified differences when we compared the name of the CFC campaign, PCFO, or
        address of the PCFO on the list of CFC areas from the OCFO/NFC system to the list of
        local CFC areas provided by OPM. See Exhibit C for a chart detailing the differences
        and OCFO/NFC management’s response.

     9. Sort the report of all employees with CFC deductions by official duty station.

        a. Compare the official duty stations to the campaigns identified for those locations.

        b. Compare the accounting codes for each employee with CFC deductions to the
           accounting code identified for that employee’s official duty station. Determine if this
           agrees with the accounting code identified for that filed/duty station.

        Report as a finding the following: All instances in which the accounting code for an
        employee with CFC deductions does not agree to the accounting code for that employee’s
        Official Duty Station. A chart listing the Federal agency, the duty station code, the
        campaign used and the correct campaign should be included. Obtain management’s
        explanation for the differences and a corrective action plan.

        Results

        Of the 93,732 records with CFC deductions reported by OCFO/NFC for PP 4, 2012, we
        determined that the OCFO/NFC CFC code was not consistent with the OPM CFC code
        by duty station for 2,380 (or about 2.5 percent) of the records. See exhibit D for a chart
        detailing the differences and OCFO/NFC management’s response.

     10. From the list of accounting codes that do not agree with the field office/duty station,
         select a judgmental sample of two pledges per federal agency and request the hard copy
         pledge from the agency.

            ·     Determine if the pledge form was used for the correct campaign based on the
                  official duty station.

            Report as a finding the following: All instances in which the incorrect pledge form
            was used by the employee. A chart listing the Federal agency, the correct campaign
            and the campaign used should be included.




18      REPORT 11401-0003-11
Exhibit A: Procedures Performed and Results
                                                                                         Exhibit A – Page 14 of 14

             Results

             We requested 17 CFC pledge forms7 from nine agencies. Agencies were unable to
             provide four of the requested pledge forms – one each for Agency for International
             Development, and the Departments of Commerce, Homeland Security, and Housing
             and Urban Development. Of the 13 pledge forms received, ten were for the incorrect
             CFC campaign. See exhibit E for a chart listing the Federal agency, the correct
             campaign and the campaign used.




7
 Agency for International Development only had one CFC code that did not agree with field office duty stations; all
other departments tested had at least two.

                                                                              REPORT 11401-0003-11             19
The subsequent sections of the report exhibit B (pages 20
through 21), exhibit C (pages 22 through 30), and
exhibit D (pages 31 through 58) are not being publicly
released due to the sensitive security content.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
